No.

fl-'451

Supreme Court, U S
FILED

JUl 3 I 2019

3n

Supreme Court of tfje ®ntteb States;
EDWARD RONNY ARNOLD, Pro Se,
Petitioner;
v.

BURNS PHILLIPS, Commissioner,
Tennessee Department of Labor and Workforce
Development,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit

PETTITON FOR A WRIT OF CERTIORARI

Edward R. Arnold
5036 Suter Drive
Nashville, TN. 37211
(615) 999-8044
July 31, 2019

OFFICE of THE Cl FRK-

1

QUESTIONS PRESENTED

The position of Clerk of the Court is an appointed
position and is not an arbitrator of civil actions.
The Clerk of the United States District Court for
the Middle District of Tennessee is the officer of the
United States District Court responsible for
overseeing filings with the Court and maintaining its
records.
The United States District Court Clerk's duties are
prescribed by Rule 45 - Clerk's Duties and by the
Court's customs and practices. The Clerk's Office is
responsible for maintaining the dockets and records of
the Court.
Rule 45 (a) (b) does not allow the Court Clerk to
modify records. Rule 55 (a) requires the Court Clerk
to Enter a Default if the record does not show a party
responded to a civil action within the required time,
Fisher v. Taylor, 1 F.R.D. 448, 448 (E.D. Tenn. 1940);
United States v. Jackson, 25 F. Supp. 79, 79-80 (D. Or.
1938); see 6 J. Moore, Federal Practice 55.03[1] (2d
ed.1976); 10 C. Wright & A. Miller, supra note 10, §
2682.
In this case, the Court Clerk for the United States
District Court for the Middle District of Tennessee
denied an Entry of Default in Edward Ronny Arnold
v. Burns Phillips, Commissioner of the State of
Tennessee Department of Labor and Workforce
Development 3:18-cv-0541.

11

The questions presented are:
1. Whether the United States Court of Appeals for the
Sixth Circuit incorrectly dismissed the civil action in
conflict with existing rules of appellate procedure; placing
the plaintiff and the defendant in violation of due process;
circumventing the process of default judgment and due
process under U.S. Const. Amend. 1 and U.S. Const.
Amend. 14.
2. Whether the Court Clerk for the United States
District Court for the Middle District of Tennessee denied
an entry of default in violation of Rule 55 (a).
3. Whether the Court Clerk for the United States
District Court for the Middle District of Tennessee’s
acceptance of documents transmitted more than eight (8)
months after the date of default constitutes a violation of
Fed. Rule 5.4.9 SERVICE OF DOCUMENTS BY
ELECTRONIC MEANS which requires both parties to
consent to electronic filing and constitutes an unequal
access to the courts by the low-income, fixed-income Pro
Se litigant.

Ill

PARTIES TO THE PROCEEDING
The party to this proceeding is identified in this
petitions caption.
Tenn. R. Civ. P. 4.04(6) requires the Defendant,
Burns Phillips, Commissioner State of Tennessee
Department of Labor and Workforce Development, to
be served through the State of Tennessee Office of the
Attorney General and Reporter, Herbert Slatery III.
Rachel Jackson Building 320 6th Avenue North.
Nashville, Tennessee 37243.

IV

TABLE OF CONTENTS
Page
Questions Presented........

1

Parties to the Proceedings

m

Table of Authorities.........

vi

Opinion and Orders Below

1

Jurisdiction........................

1

Statutory Provision Involved

. .3

Statement...............................

5

Reasons to Grant the Petition

16

I.
The United States Court of Appeals for the
Sixth Circuit incorrectly dismissed the civil action in
conflict with existing rules of appellate procedure.
A. The court erred in referencing Firestone Tire
& Rubber Co. v. Risford, 449 U.S. 368, 373-74
(1981) and Bonner u. Perry, 564 F. 3d 424,
426-27 (6th Cir. 2009).
B. The court erred in referencing McNutt v.
Cardox Corp, 329 F. 2d 107. 108 (6th Cir.
1964).

II.
The Court Clerk for the United States District
Court for the Middle District of Tennessee denied an
entry of default in violation of rule 55 (a).

V

TABLE OF CONTENTS - Continued
Page
A. 28 U.S. Code § 504. Duties of Director
B. 28 U.S. Code § 711. Clerks and employees
C. Servicemembers Civil Relief Act does
not apply
Conclusion

25

APPENDIX
Denial of Entry of Default (04/01/19)

. . App. 1

Sixth Circuit Opinion ( 05/15/19) . . .

. .App. 4

Order (02/25/19)..................................

, App. 6

Plaintiffs Show Cause (29/03/19) . . .

. . App. 8

Response Entry of Default (26/03/19)

. App. 18

Notification of violation of Rule 45 (b) . . . . App. 20

VI

TABLE OF AUTHORITIES
Page
Cases
J. Moore, Federal Practice 55.03[2],
at 55-32 (2d ed. 1976)
i, 2, 14, 15, 18, 21
10 C. Wright & A. Miller,
supra note 10, § 2688, at 280
Clifton v. Tomb,
21 F.2d 893, 897 (4th Cir. 1927)

i, 15, 18, 21

14, 18

Edward Ronny Arnold v. Bob Oglesby,
Commissioner State of Tennessee Department of
9
General Services, 17C133
Edward Ronny Arnold v. Bob Oglesby, Et. Al.
M2017-00808-COA-R3-CV
(Tenn. Ct. App. 2017).........................................

10

Edward Ronny Arnold v. Burns Phillips,
Commissioner State of Tennessee Department
of Labor and Workforce Development,
No. 3:18-cv-0541
i, 4, 13 15, 17, 21, 22, 24
Edward Ronny Arnold v. Burns Phillips,
Commissioner of the State of Tennessee Department of
Labor and Workforce Development,
No. 19-5362
23
Edward Ronny Arnold v. Burns Phillips,
Commissioner of the State of Tennessee Department of
Labor and Workforce Development,
No. 16-1174-IV
19

Vll

TABLE OF AUTHORITIES - Continued
Page
Edward Ronny Arnold v. Burns Phillips,
Commissioner State of Tennessee Department
of Labor and Workforce Development,
No. 19-5737 ........................................................

24

Fisher v. Taylor,
1 F.R.D. 448, 448 (E.D. Term. 1940)... . i, 2, 15, 21
Hughes Tool Co. v. Trans World Airlines, Inc.,
409 U.S. 363(1973)
14, 17
Nishimatsu Constr. Co. v. Houston Nat 'l Bank,
515 F.2d 1200, 1206 (5th Cir. 1975)........... 14, 18
Thomson v. Wooster,
114 U.S. 104, 112-14(1885)

14, 17

Trans World Air-lines, Inc. v. Hughes,
449 F.2d 51, 63-64, 69-70 (2d Cir. 1971)...

.14, 18

United States v. Jackson,
25 F. Supp. 79, 79-80 (D. Or. 1938)

2, 15, 21

STATUTES
Term. Code. Ann. § 20-13-102 (a)

10

Tenn. Code. Ann. § 40-10-113 . . .

20

Vlll

TABLE OF AUTHORITIES - Continued
Page
Tenn. Code. Ann. § 50-1-602

20

Tenn. Code. Ann. § 50-7-213

8, 9

Tenn. Code. Ann. § 50-7-303(a)(ll)

6, 8, 11

Tenn. Code. Ann. § 50-7-303(a)(12)

6, 8, 11

Tenn. Code. Ann. § 50-7-304 (c)

9

Tenn. Code. Ann. § 50-7-211

6, 8, 10, 12

Tenn. Code. Ann. § 50-7-213

9

28 U.S.C. § 604

16, 18

28 U.S.C. § 711

16, 18

28 U.S.C. § 723(c)

2

28 U.S.C. § 1291

3, 17

28 U.S.C. § 1331

21

28 U.S.C. § 1343 (c)

21

28 U.S.C. § 1654

5

28 U.S.C. § 2201

21

IX

TABLE OF AUTHORITIES - Continued
Page
28 U.S.C. § 2202

29 U.S.C. §§ 2101 to 2109
42 U.S.C. § 1983
44 U.S.C. § 3301 (1) (2)

21

7, 20
21
5, 6, 11, 19, 20

RULES AND REGULATIONS
Tenn. R. Civ. P. 4.04 (6) .

iii, 14, 17, 22

Tenn. R. Civ. P. 12.02 (1)

10

Fed. R. Civ. P. 5.4.9 ....

li

Fed. R. Civ. P. 10 (a)(c).

1

Fed. R. Civ. P. 45 (a) (b)

i, 3, 24

Fed. R. Civ. P. 55 (a) . . .

ii, 2, 3, 5, 6, 18

Fed. R. Civ. P. 57.........

21

OTHER AUTHORITIES
Tenn. Const. Art. I, § 17

5

U.S. Const, amend 1 .

ii, 2, 5, 26

U.S. Const, amend 14

. . ii, 2, 26

U.S. Const. Art III, § 1

23

1
Edward Ronny Arnold, Pro Se, respectfully
petitions for a writ of certiorari to review the
judgement of the Sixth Circuit in this case.

OPINION AND ORDERS BELOW
The Sixth Circuit’s May 15, 2019 panel opinion for
19-5362 filed 05/15/2019 is not published and
reproduced at App. 4-5.

JURISDICTION
This Court has jurisdiction under Rule 10 Considerations Governing Review on Certiorari
compelling reason (a), (c).
(a) a United States court of appeals has entered a
decision in conflict with the decision of another
United States court of appeals on the same
important matter; has decided an important
federal question in a way that conflicts with a
decision by a state court of last resort; or has so far
departed from the accepted and usual course of
judicial proceedings, or sanctioned such a
departure by a lower court, as to call for an exercise
of this Court’s supervisory power.
(c) a state court or a United States court of appeals
has decided an important question of federal law
that has not been, but should be, settled by this
Court, or has decided an important question in a

2
way that conflicts with relevant decisions of this
Court.
In this case, the United States District Court for
the Sixth Circuit dismissed a civil action which
conflicts with the case United States v. Jackson, 25 F.
Supp. 79, 79-80 (D. Or. 1938); Fisher v. Taylor, 1
F.R.D. 448, 448 (E.D. Tenn. 1940), and established
rules of civil procedure; see 6 J. Moore, Federal
Practice 55.03[1] (2d ed.1976); 10 C. Wright & A.
Miller, supra note 10, § 2682.
Under Rule 55, Rules of Civil Procedure, 28
U.S.C.A. following section 723c, this default of the
Defendant, Burns Phillips, Commissioner of the State
of Tennessee Department of Labor and Workforce
Development, should be entered by the clerk as of
course without any application to the court, provided
an appropriate affidavit is filed.
In this case, the Court Clerk for the United States
District Court for the Middle District of Tennessee
denied the Plaintiff s Entry of Default in violation of
Fed. Rule 55(a) circumventing the process of Default
Judgment and due process under U.S. Const, amend.
1 and U.S. Const. Amend. 14.
The dismissal allowed the United States District
Court for the Middle District of Tennessee to dismiss,
with prejudice, the case to which the Defendant,
Burns Phillips, Commissioner of the State of
Tennessee Department of Labor and Workforce
Development, by and through the State of Tennessee
Office of the Attorney General and Reporter, was in
default by violation of Fed. Rule 55 (a).

3
The actions or inactions of the Court Clerk for the
United States District Court for the Middle District of
Tennessee, in denying Entry of Default, presents to
this Court the judicial issue of the authority of the
Court Clerk to adjudicate cases without judicial
authority and requires an evaluation of Rule 55 (a)
and Rule 45.
Case 19-5362 was dismissed May 15, 2019 and this
Petition On Writ of Certiorari in the Supreme Court
of the United States was filed within the time period
of ninety (90) days before the judgment of the United
States District Court for the Sixth Circuit was
mandated on August 11, 2019.

STATUTORY PROVISIONS INVOLVED
28 U.S.C § 1291 provides, in part, courts of appeals
shall have jurisdiction of appeals from all final
decisions of the district courts of the United States,
the United States District Court for the District of the
Canal Zone, the District Court of Guam, and the
District Court of the Virgin Islands, except where a
direct review may be had in the Supreme Court.
(June 25, 1948, ch. 646, 62 Stat. 929; Oct. 31, 1951, ch.
655, § 48, 65 Stat. 726; July 7, 1958, Pub. L. 85-508, §
12(e), 72 Stat. 348.)
In addition to the jurisdiction conferred by this
chapter, the courts of appeals also have appellate
jurisdiction in proceedings under Title 11,
Bankruptcy, and jurisdiction to review.

4
One issue before this court is the authority of the
Court Clerk for the Middle District of Tennessee’s
denial of Entry of Default in the case of Edward Ronny
Arnold v. Burns Phillips, Commissioner State of
Tennessee Department of Labor and Work Force
Development No. 3:18-cv-0541 constitutes a final
judgement in proceedings see App. 1-3.
In essence, is the position of Court Clerk for the
Middle District of Tennessee a judicial position? If the
response is yes, the United States District Court for
the Sixth Circuit had jurisdiction and erred in
dismissing the case.

5
STATEMENT
1. Citizens and residents of the State of Tennessee
have a legal right to redress public officials for
knowingly violating federal and state statute U.S.
Const, amend. I , Tenn. Const. Art. I, § 17. This right
is not reserved only for attorneys 28 U.S.C. § 1654 but
the current legal system is changing to which only
attorneys and their clients, companies, state and
federal departments and agencies have access to the
legal system creating an unequal access for
minorities.
For a period of time, the Pro Se litigant has been
slowly removed from the United States judicial
system due to the introduction of electronic filing,
Electronic filing (CM/ECT) and CaseLink, to which
low-income, fixed-income, minority Pro Se litigants
have an unequal access to the courts.
The electronic filing system has moved from a
repository of data, as required by Title 44 of the
United States Code (44 U.S.C. § 3301 (1) (2)) to a
method of administering the court to which an
unequal access to the court for low-income, fixedincome, minority Pro Se litigants have an unequal
access to Federal and State Courts as shown in this
case.
In this case, the Court Clerk for the United States
District Court Middle District of Tennessee Nashville
Division violated Rule 55(a) in accepting electronic
documents submitted more than eight (8) months
after the Defendant’s default in a failure to respond to
civil action 3:18-cv-0541 to deny an entry of default in

6
violation of Rule 55(a), in essence backdating
electronic documents to which the Plaintiff did not
have initial access to and responded to as per App. 18.
2. The State of Tennessee Department of Labor
and Workforce Development introduced a new on-line
reporting system first quarter 2016 named
JOBS4TN.GOV and At.newappeals@tn.gov. The
system experienced problems in accurately reporting
unemployment benefits partially attributed to
documents were not available in electronic format as
required by Title 44 of the United States Code (44
U.S.C. § 3301 (1) (2). As a result of the failure of the
State of Tennessee Department of Labor and
Workforce Development to provide documents in an
electronic format for use by the new on-line systems,
JOBS4TN.GOV and At.newappeals@tn.gov. the
Chancery Court, Davidson County, Tennessee could
not determine Tenn. Code. Ann § 50-7-303 (a) (11) and
Tenn. Code. Ann. § 50-7-303 (a) (12). To which, there
was no available evidence the State of Tennessee
Department of General Services complied with Tenn.
Code Ann. § 50-7-211.
It should be noted before this court, the issue of
Tenn. Code Ann. § 50-7-211 did not give employees of
the State of Tennessee, or any employee of a company
having fifty (50) or more employee, additional
unemployment benefits but provided for a more
efficient process to which those employees, whose
position was eliminated in a Reduction in Force (RIF),
were automatically approved for unemployment
benefits. In this case, the Plaintiff was entitled under
Tenn. Code Ann. § 50-7-211 to unemployment benefits
for the period of October 26, 2015 to November 24,
2015.

7
3. This case began in the year 2011 when
employees of the State of Tennessee were notified of a
Reduction in Force (RIF) due to a change in position
titles. This notification affected the State of Tennessee
Department of General Services to which the Plaintiff
/ Appellant, Edward Ronny Arnold, was employed as
an Information Resource Support Specialist 4
(IRSS4). At this time, the Plaintiff / Appellant’s
position was in Contract Administration.
To prepare employees for potential layoffs,
representatives of the State of Tennessee Department
of General Services held Town Hall Meetings to which
representatives of the State of Tennessee Department
of Labor and Workforce Development and the
Tennessee Consolidated Retirement System (TCRS)
presented options for early retirement and options for
a different position title as required by Tenn. Code.
Ann. § 50-1-602. In this case, the Plaintiff / Appellant
transferred from his current position March 12, 2012,
in Contract Administration, to Information Systems
Management (ISM) to which he worked supporting
the computer-based infrastructure of the State of
Tennessee Department of General Services.
State employees potentially affected were
presented with Worker Adjustment and Retraining
Notification (WARN) notices as required by 29 U.S.C.
§§ 2101 to 2109. State employees of the Department
of General Services, unable to secure a different
position, were placed on Administrative Leave with
Pay for a period of thirty (30) days to which they did
not return.
The Plaintiff / Appellant was informed on October
26, 2015 his position was eliminated in a Reduction in
Force (RIF) and he was placed on Administrative

V.

8
Leave with Pay from October 26, 2015 to November
24, 2015.
The Plaintiff / Appellant filed for unemployment
benefits on October 28, 2015 as Tenn. Code. Ann. § 507-213 does not classify Administrative Leave with Pay
as wages. The claim was denied and the Plaintiff /
Appellant appealed the denial to which the Appeals
Tribunal reversed the denial stating, “The petitioner
was not employed when he applied for unemployment
benefits on October 28, 2015." This ruling affected as
many as one hundred (100) former employees of the
State of Tennessee Department of General Services as
to a denial of benefits estimated as $100,000.00.
4. Representatives of the State of Tennessee
Department of Labor and Workforce Development
reversed the decision of the Appeals Tribunal claiming
the Plaintiff / Appellant was not on Administrative
Leave with Pay but was paid Wages in Lieu of Notice.
This reversal activated Tenn. Code Ann. § 50-7-303
and Tenn. Code Ann. § 50-7-211. This law exempts
employees whose position was eliminated in a
Reduction of Force if the employer complied with the
law prior to July 1, 2012; entitling the petitioner to
unemployment benefits for the contested period. This
decision by representatives of the State of Tennessee
Department of General Services affected as many as
five hundred (500) former employees of the State of
Tennessee Department of General Services as to a
denial of benefits estimated as $500,000.00.
5. A Petition for Judicial Review in the Chancery
Court of Davidson County, Tennessee Department of
Labor
and Workforce Development, Appeal
1603333AA - Denial of Unemployment Benefits was

9
initiated in Davidson County Chancery Court Part IV
in Nashville, Tennessee 16-1174-IV.
The main issue before the Chancery Court was the
Respondent / Appellee’s position Administrative
Leave with Pay is the same as Wages Paid in Lieu of
Notice. The court erred in not ruling Administrative
Leave with Pay is not wages as stated in Tenn. Code
Ann. § 50-7-213.
A second issue before the Chancery Court is
representatives of the Tennessee Department of
Labor and Workforce Development violated Tenn.
Code Ann. § 50-7-304 (c) in applying remedy before the
appeals process was complete. The Chancery Court
erred in ruling Tenn. Code Ann. § 50-7-304 (c) does not
apply to appeal 15-13932AA.
6. At this point, the case split; affecting a second
case. In a case which involved the collection of wages
earned for the Federal holiday of Columbus Day, the
second Monday in October, substituted in the State of
Tennessee for the Friday after Thanksgiving, the
fourth Thursday in November, Edward Ronny Arnold
u. Bob Oglesby, Commissioner of the State of Tennessee
Department of General Services 17C133, the Plaintiff
/ Appellant was informed in a telephone conversation
by the Attorney of Record, representing the State of
Tennessee Attorney General and Reporter, the
Defendant / Appellee refused to settle the wage claim
of $180.00 minus withholding because the Plaintiff /
Appellant filed an appeal. At the time of the filing of a
civil action to recover the earned wages on November
24, 2016, the only appeal filed by the Plaintiff /
Appellant was 15-13932AA on November 24, 2015 to
which the Appeals Tribunal of the State of Tennessee
Department of Labor and Workforce Development

10
overturned a denial of unemployment benefits to
which Administrative Leave with Pay is not wages as
defined by Tenn. Code. Ann. § 50-7-211. (Tr., 1, p. 68. L. 1-25).
In a Motion to Dismiss by the Defendant /
Appellee, represented by the State of Tennessee Office
of the Attorney General and Reporter, the Defendant
/ Appellee claimed the defense of sovereign immunity
as codified in Tenn. Code. Ann. § 20-13-102 (a). The
trial court, Sixth Circuit Court of Davidson County,
Tennessee, ruled it did not have subject matter
jurisdiction based on Tenn. R. Civ. P. 12.02 (1).
It should be noted before this court, the Defendant
/ Appellee as represented by the State of Tennessee
Office of the Attorney General and Reporter did not
deny the Plaintiff / Appellant was owed the earned
wages and did not deny the Defendant / Appellee
knowingly did not respond to seven (7) attempts to
collect the earned wages which included a certified
letter to the State of Tennessee Commissioner of
Human Resources Rebecca Hunter.
The ruling of the trial court, Sixth Circuit Court of
Davidson County, Tennessee was overturned in the
case of Edward Ronny Arnold u. Bob Oglesby, et al.
M2017-00808-COA-R3-CV.(Tenn. Ct. App. 2017). The
case was remanded back to the trial court (Opinion p
4). At the present time, the case is progressing
through the state and federal courts.

11
ON-LINE REPORTING SYSTEM
The State of Tennessee Department of Labor and
Workforce Development introduced a new on-line
reporting system first quarter 2016 named
JOBS4TN.GOV and At.newappeals@tn.gov. The
system experienced problems in accurately reporting
unemployment benefits to the Plaintiff / Appellant as
two (2) weekly unemployment benefits were
inaccurately reported as an overpayment to the
Plaintiff / Appellant and two (2) weekly
unemployment benefits were reported as paid when
they were not.
The problems with the new on-line systems is
partially attributed to documents were not available
in electronic format as required by Title 44 of the
United States Code (44 U.S.C. § 3301 (1) (2). As a
result of the failure of the State of Tennessee
Department of Labor and Workforce Development to
provide documents in an electronic format for use by
the new on-line systems, JOBS4TN.GOV and
At.newappeals@tn.gov. the Chancery Court ruled in
its MEMORANDUM AND FINAL ORDER /
CONCLUSIONS OF LAW p.6:
“Here, the record lacks sufficient evidence to
find that the exception under section T.C.A.
§50-7-303 (a) (11) is applicable to the reduction
in force which affected the Claimant in 2015”.
“The record lacks sufficient evidence to find the
exception under T.C.A. §50-7-303 (a) (12) is
applicable to the reduction in force which
affected the Claimant in 2015.”

12
On June 14, 2017, a Motion to Augment Record on
Appeal was denied by the Chancery Court to which
the Defendant / Appellee, objected to the motion for
the inclusion of records, claimed to have not been
received by certified mail from the United States
Postal Service, which presented evidence before the
court the State of Tennessee Department of General
Services complied with Tenn. Code Ann. § 50-7-211
which exempts employees whose position was
eliminated in a Reduction In Force (RIF) if the
employer complied with the law prior to July 1, 2012.
The Defendant, Burns Phillips, Commissioner of
the State of Tennessee Department of Labor and
Workforce Development, as represented by the State
of Tennessee Office of the Attorney General, was
aware of issues with the new on-line system as
recorded during the Oral Arguments before the
Tennessee Court of Appeals Middle District at
Nashville February 5, 2018, M2017-01103-COA-R3CV. The representative for the State of Tennessee
Office of the Attorney General could not answer a
basic question related to the case before the court as
evidenced by the recording section 15:40 - 16:16:
Oral Arguments 2/5/2018 Recording Section 15:40
- 16:16
Question from Justice Frank G. Clement Jr. to the
representative of the State of Tennessee Office of
the Attorney General Derek Green:
“Did he get 26 weeks benefits after the period
he is contesting here?”
Response from Counselor Derek Green:

13
“As he admits You’re Honor. The state will
admit there is not [sic] evidence in the record
outside his admission.”
As
stated
during the
oral arguments,
representatives of the State of Tennessee Department
of Labor and Workforce Development did not know if
the Petitioner / Plaintiff received 26 weeks of
unemployment benefits after the contested period of
October 26, 2015 to November 24, 2015. The system
would show two payments were recorded in the on­
line system as paid but the Petitioner / Plaintiffs bank
records do not show the two deposits.
The Petitioner / Plaintiff was not paid
unemployment benefits for two weeks to which he was
eligible.
The Tennessee Court of Appeals for the Middle
District at Nashville dismissed the case based on
inaccurate information provided by the new online
systems, JOBS4TN.GOV and At.newappeals@tn.gov,
An Application to Appeal to the Tennessee
Supreme Court was denied and a civil action was filed
with the United States District Court for the Middle
District of Tennessee Edward Ronny Arnold v. Burns
Commissioner
State
of
Tennessee
Phillips,
Department of Labor and Workforce Development, No.
3:18-cv-0541.
The remedy, in addition to two (2) week’s pay of
unemployment compensation incorrectly filed as paid
by the new on-line reporting system, at the time,
JOBS4TN.GOV and At.newappeals@tn.gov., is a

14
judicial review of all claims made and errors reported
as to problems the new systems inaccurately reported
related to unemployment claims, by citizens and
residents of the State of Tennessee, during the time
period of October 26, 2015 - July 1, 2016.
Tenn. R. Civ. P. 4.04 (6) requires the Defendant to
be served in State or Federal Courts or the United
States Supreme Court through the State of Tennessee
Office of the Attorney General and Reporter, Herbert
Slatery III.
In this case, the Defendant, Burns Phillips,
Commissioner of the State of Tennessee Department
of Labor and Workforce Development, did not respond
to Civil Action 3:18-cv-0541 as required by Fed. Rule
55(a) and is in default.
The court record records the Defendant was
properly served on June 13, 2018 as required by Tenn.
R. Civ. P. 4.04(6). The court record records the
Defendant did not respond to the civil action in the
required time period and the court record records the
Defendant did not request an extension to respond.
The defaulting party loses his standing to contest
the truth of all facts that are in the non-defaulting
party's complaint Thomson v. Wooster, 114 U.S. 104,
112-14 (1885); Nishimatsu Constr. Co. v. Houston
Nat'lBank, 515 F.2d 1200, 1206 (5th Cir. 1975); Trans
World Air-lines, Inc. u. Hughes, 449 F.2d 51, 63-64, 6970 (2d Cir. 1971), rev'd on other grounds sub nom.
Hughes Tool Co. v. Trans World Airlines, Inc., 409
U.S. 363(1973); Clifton v. Tomb, 21 F.2d 893, 897 (4th
Cir. 1927); 6 J. Moore, Federal Practice 55.03[2], at 55-

15
32 (2d ed. 1976); 10 C. Wright & A. Miller, supra note
10,§ 2688, at 280.
The Defendant did not respond and entered into
Default judgment as per Rule 55(a):
(a) Entering a Default. When a party against
whom a judgment for affirmative relief is
sought has failed to plead or otherwise defend,
and that failure is shown by affidavit or
otherwise, the clerk must enter the party's
default.
In this case, the Court Clerk was required to Enter
a Default, Fisher v. Taylor, 1 F.R.D. 448, 448 (E.D.
Tenn. 1940); United States u. Jackson, 25 F. Supp. 79,
79-80 (D. Or. 1938); see 6 J. Moore, Federal Practice
55.03[1] (2d ed.1976); 10 C. Wright & A. Miller, supra
note 10, § 2682, but the Court Clerk denied an Entry
of Default in Civil Action 3:18-0541, Edward Ronny
Arnold v. Burns Phillips, Commissioner State of
Tennessee Department of Labor and Workforce
Development.
The Court Clerk’s denial of Request for Entry of
Default exceeded its authority and this denial was
appealed to the United States Court of Appeals for the
Sixth Circuit April 9, 2019, Docket No. 19-5362.

16
REASONS TO GRANT THE PETITION

I. The United States Court of Appeals for the
Sixth Circuit incorrectly dismissed the civil
action in conflict with existing rules of
appellate procedure; which placed the
plaintiff and the defendant in violation of
due process; circumventing the process of
default judgment and due process under
U.S. const. Amend. 1 and U.S. const. Amend.
14.
A. The court erred in referencing Firestone
Tire & Rubber Co. v. Risford, 449 U.S. 368,
373-74 (1981) and Bonner v. Perry, 564 F.
3d 424. 426-27 (6th Cir. 2009).
The referenced citations do not address the issue
of the Court Clerk for the Middle District Court for the
Middle District of Tennessee denying an Entry of
Default in violation of 28 U.S. Code § 604. Duties of
Director General as the Director does not have the
authority to allow the Court Clerk to adjudicate cases.
U.S. Code § 711. Clerks and employees does not allow
the Court Clerk to adjudicate cases,

B. The court erred in referencing McNutt v.
Cardox Corp, 329 F. 2d 107. 108 (6th Cir.
1964).

17
The referenced citation does not address the issue
of the Court Clerk for the Middle District Court for the
Middle District of Tennessee denying an Entry of
Default. The reference to § 1291 Final decisions of
districts courts does not apply as the district court, at
that time, had not issued a final decision in the case
of Edward Ronny Arnold v. Burns Phillips,
Commissioner State of Tennessee Department of Labor
and Workforce Development No. 3:18-cv-00541.
28 U. S. Code § 1291 limits the court to final
decisions of the court but the statute does not prevent
the court from ruling on the violation of the Court
Clerk’s abuse of authority.
The dismissal allowed the United States District
Court for the Middle District of Tennessee to dismiss,
with prejudice, Edward Ronny Arnold vs. Burns
Commissioner
Phillips,
State
of Tennessee
Department of Labor and Workforce Development No.
3:18-cv-0541, the case to which the Defendant, Burns
Phillips, Commissioner of the State of Tennessee
Department of Labor and Workforce Development, by
and through the State of Tennessee Office of the
Attorney General, was in default by violation of Fed.
Rule 55 (a).
The court record records the Defendant was
properly served on June 13, 2018 as required by Tenn.
R. Civ. P. 4.04(6). The court record records the
Defendant did not respond to the civil action in the
required time period and the court record records the
Defendant did not request an extension to respond.
. The defaulting party loses his standing to contest
the truth of all facts that are in the non-defaulting
party's complaint Thomson v. Wooster, 114 U.S. 104,

18
112-14 (1885); Nishimatsu Constr. Co. v. Houston
Nat'l Bank, 515 F.2d 1200, 1206 (5th Cir. 1975); Trans
World Air-lines, Inc. v. Hughes, 449 F.2d 51, 63-64, 6970 (2d Cir. 1971), rev'd on other grounds sub nom.
Hughes Tool Co. u. Trans World Airlines, Inc., 409
U.S. 363(1973); Clifton v. Tomb, 21 F.2d 893, 897 (4th
Cir. 1927); 6 J. Moore, Federal Practice 55.03[2], at 5532 (2d ed. 1976); 10 C. Wright & A. Miller, supra note
10,§ 2688, at 280.
The Defendant did not respond and entered into
Default judgment as per Rule 55(a):
II. The court clerk for the United States
District Court for the Middle District of
Tennessee denied an entry of default in
violation of Rule 55 (a).
A. U.S. Code § 604. Duties of Director.
VU.S. Code § 604 does not give the Director of the
Administrative Office of the United States Courts
authority to adjudicate cases to the Court Clerk.
B. U.S. Code § 711. Clerks and employees.
U.S. Code § 711 does not give the Court Clerk
authority to adjudicate cases.
C. Servicemembers Civil Relief Act does not
apply.
Form AO 440 (Rev. 12/09) Summons in a Civil
Action does not address the Servicemembers Civil
Relief Act (SCRA). The Plaintiff is not required to
submit verification of military service or the

19
defendants capacity of age, minor, or mental capacity,
incompetent.
Form AO 440 (Rev. 12/09) Summons in a Civil
Action, as filed, states:
Appeal No. M2017-01103-COA-R3-CV On Appeal
from Chancery Court for Davidson County Case
No. 16-1174-IV Russell T. Perkins Chancellor.
Tennessee Supreme Court APPLICATION FOR
PERMISSION TO APPEAL denied May 16, 2018.
The failure of the State of Tennessee Department
of Labor and Workforce Development’s compliance
with the Federal Records Act, 44. U.S.C § 3301 (1)
(2), to classify and include records from the State
of Tennessee Department of Labor and Workforce
Development on-line systems JOBS4TN.GOV and
AT.newappeal@tn.gov., in the case of Edward
Ronny Arnold v. Burns Phillips, Commissioner of
the State of Tennessee Department of Labor and
Workforce Development, Case No. 16-1174-IV,
prejudiced the Tennessee state courts of the
Chancery Court for the State of Tennessee
Twentieth Judicial District, Davidson County,
Part IV; State of Tennessee Court of Appeals of
Tennessee at Nashville; and the Tennessee
Supreme Court, in that inaccurate and incomplete
information was presented to the state courts to
deny unemployment benefits to the Plaintiff for
the period of October 26, 2015 to November 24,
2015.
Plaintiff is owed unemployment benefits for the

20
period of October 26, 2015 to November 24, 2015.
Electronic records for the Plaintiffs claim,
JOBS4TN.GOV, differ from the Plaintiffs bank
records of deposits, TN UI PAYMENTS, indicating
a minimum of two weeks unemployment benfefits
unpaid.
The Court should order Burns Phillips,
Commisisoner of the State of Tennessee
Department of Labor and Workforce Development,
to comply with 44. U.S.C § 3301 (1) (2) to classify
and include records from the State of Tennessee
Department of Labor and Workforce Development
JOBS4TN.GOV
on-line
systems
and
AT.newappeal@tn.gov. as specified in Tenn. Code.
Ann. § 47-10-113.
The Court should order a review of the system
based on errors reported by the Plaintiff during the
appeal process for benefits denied for the period of
October 26, 2015 to November 24, 2015. It is
estimated 100,000 Tennessee residents are
required monthly to use the online systems and the
Defendent, Burns Phillips, Commisisoner of the
State of Tennessee Department of Labor and
Workforce
Development
through
his
representative, the State of Tennessee Office of the
Attorney General, has not indicated a willingness
to investigate reported errors. These errors include
the
inability to process appeal docket
No.2016008726-AT and the inability to process a
document request to the separating employer, the
State of Tennessee Department of General
Services, for documentation related to Federal

21
Law 100-379 and Tenn. Code. Ann. § 50-1-610.
The Court may impose fines on the State of
Tennessee for knowingly not complying with 44.
U.S.C § 3301 (1) (2) to classify and include records
from the State of Tennessee Department of Labor
and Workforce Development on-line systems
JOBS4TN.GOV and AT.newappeal@tn.gov.
Jurisdiction in this Court over the Plaintiffs'
claims brought pursuant to 42 U.S.C. § 1983 is
provided by 28 U.S.C. §§ 1331 and 1343(3). The
declaratory and injunctive relief sought is
authorized by 28 U.S.C. §§ 2201 and 2202, 42
U.S.C. §1983, and Rule 57 of the Federal Rules of
Civil Procedure.

The Court Clerk in the United States District
Court for the Middle District of Tennessee was
required to Enter a Default based on the record,
Fisher v. Taylor, 1 F.R.D. 448, 448 (E.D. Tenn. 1940);
United States v. Jackson, 25 F. Supp. 79, 79-80 (D. Or.
1938); see 6 J. Moore, Federal Practice 55.03[1] (2d
ed.1976); 10 C. Wright & A. Miller, supra note 10, §
2682.
The Court Clerk denied an Entry of Default in Civil
Action Edward Ronny Arnold v. Burns Phillips,
Commissioner State of Tennessee Department of Labor
and Workforce Development No. 3:18-cv-0541 based on
electronic documents received more than eight (8)
months after the Defendant entered into default. In
essence, the electronic documents were backdated
more than eight (8) months in violation of Rule 55 (a).

22

1. The Court Clerk in the United States District
Court for the Middle District of Tennessee certified
proper service in Civil Action 3:18-cv-0541 was
complete on June 13, 2018 as evidenced by certified
mail return receipt 7017 0660 0000 2312 9967 mailed
June 11, 2018.
The court record records the Defendant was
properly served on June 13, 2018 as required by Tenn.
R. Civ. P. 4.04(6). Tenn. R. Civ. P. 4.04(6) requires the
Defendant to be served through the State of
Tennessee Office of the Attorney General and
Reporter, Herbert Slatery III. The court record
records the Defendant, Burns Phillips, Commissioner
of the State of Tennessee Department of Labor and
Workforce Development, by and through the State of
Tennessee Office of the Attorney General and
Reporter, did not respond to the civil action in the
required time period and the court record records the
Defendant did not request an extension to respond.
2. The Defendant, Burns Phillips, Commissioner of
the State of Tennessee Department of Labor and
Workforce Development, by and through the State of
Tennessee Office of the Attorney General and
Reporter, did not respond to Civil Action Edward
Ronny Arnold v. Burns Phillips, Commissioner State
of Tennessee Department of Labor and Workforce
Development No. 3:18-cv-0541 as required by Fed.
Rule 55 (a) and is in default.
Rule 55(a):
(a) Entering a Default. When a party against
whom a judgment for affirmative relief is sought has

23
failed to plead or otherwise defend, and that failure is
shown by affidavit or otherwise, the clerk must enter
the party's default.
3. The Court Clerk in the United States District
Court for the Middle District of Tennessee denied the
Plaintiffs Entry of Default.
The Court Clerk’s denial of Request for Entry of
Default exceeded its authority and this denial was
appealed to the United States Court of Appeals for the
Sixth Circuit April 9, 2019, Docket No. 19-5362. The
United States Court of Appeals for the Sixth Circuit
dismissed the appeal May 15, 2019 based on the
appeal was not a final ruling or order.
The United States District Court for the Middle
District of Tennessee further erred in rendering its
decision without jurisdiction. The United States Court
of Appeals for the Federal Circuit was established
under Article III of the Constitution and the United
States Court of Appeals for the Sixth Circuit obtained
jurisdiction from the United States District Court for
the Middle District of Tennessee when appeal 195362, Edward Ronny Arnold v. Burns Phillips,
Commissioner of the State of Tennessee Department of
Labor and Workforce Development, was filed April 9,
2019.
Appellate jurisdiction is the power of an appellate
court to review, amend and overrule decisions of a
trial court or other lower tribunal. In this case, the
Court Clerk in the United States District Court for the
Middle District of Tennessee exceeded their authority
in denying Default Entry in Civil Action No. 3:18-cv0541 filed March 11, 2019. As shown in the record, the

24
Defendant did not respond to the Civil Action filed
June 11, 2018 to which the Court Clerk in the United
States District Court for the Middle District of
Tennessee certified service was complete on June 13,
2018 as evidenced by certified mail return receipt
7017 0660 0000 2312 9967 mailed June 11, 2018.
The Defendant did not respond and entered into
Default judgment as per Rule 55(a).
The Court Clerk for the United States District
Court for the Middle District of Tennessee further
exceeded its authority in the case of Edward Ronny
Arnold v. Burns Phillips, Commissioner State of
Tennessee Department of Labor and Workforce
Development, No. 19-5737 as shown in App. 50.
As stated in the Plaintiff / Appellant’s Notification
of Violation of Rule 45 (b) filed July 23, 2019, the
Court Clerk for the United States District Court for
the Middle District of Tennessee changed the name of
the case without judicial authority or motion before
the court and in so doing changed the nature of the
case.
This case is an appeal for a civil action Edward
Ronny Arnold v. Burns Phillips, Commissioner of the
State of Tennessee Department of Labor and Workforce
Development No. 3:18-cv-00541 to which the Court
Clerk removed the name Burns Phillips and replaced
it with the name Jeff McCord. The removal of the
name Burns Phillips gives the impression the civil
action is a new action.

•v

25
CONCLUSION
To protect and preserve the right of
fixed-income, minority Pro Se litigants to
participate in the United States legal
guaranteed in U.S. Const. Amend. 1 and
Amend. 14, the petition should be granted.

low-income,
continue to
system, as
U.S. Const.

Respectfully submitted,

EDWARD RONNY ARNOLD
Pro Se
5036 Suter Drive
Nashville, Tennessee 37211
(615) 999-8044
edwardarnold@mindspring.com
Dated: July 30, 2019

